No. 19-601
IN THE SUPREME COURT OF THE UNITED STATES
_________________
COLLABO INNOVATIONS, INC., PETITIONER
v.
SONY CORPORATION, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE FEDERAL RESPONDENT IN OPPOSITION, via email and firstclass mail, postage prepaid, this 7TH day of February, 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 5529 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct.
Executed on February 7, 2020

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
February 7, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor,
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0601
COLLABO INNOVATIONS, INC.
SONY CORPORATION

PATRICK J. CONROY
BRAGALONE CONROY PC
2200 ROSS AVEUE
SUITE 4500W
DALLAS, TX 75201
214-785-6670
PCONROY@BCPC-LAW.COM
214-785-6680(Fax)

